         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's
Renewable Energy Efforts




OAS-M-12-04                          April 2012
                                 Department of Energy
                                   Washington, DC 20585
                                         April 30, 2012



MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY

FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Renewable Energy Efforts"

BACKGROUND

In an effort to promote generation of renewable energy, the Energy Policy Act of 2005 (EPAct)
requires that by Fiscal Year (FY) 2013 at least 7.5 percent of a Federal agency's annual
electricity consumption be from renewable sources. Renewable sources include wind, solar,
geothermal, hydropower, and various forms of biomass. Agencies can obtain renewable energy
by producing it on Federal lands, a method encouraged by EPAct, or by procuring it from
developers or utility companies. According to the U.S. Environmental Protection Agency, by
replacing conventional energy with renewable sources, agencies can reduce greenhouse gas
emissions by more than one pound of carbon dioxide per kilowatt hour. As required by
Executive Order 13514, Federal Leadership in Environmental, Energy, and Economic
Performance, the Department of Energy has also established a goal to reduce its greenhouse gas
emissions by 28 percent by FY 2020. The Department can use renewable energy sources to
assist in achieving its greenhouse gas reduction goal.

The Department has emphasized the need for its actions to set the example for energy and
greenhouse gas stewardship in the Federal government, the Nation's largest energy consumer.
The Department's Sustainability Performance Office, created in October 2010, oversees
Departmental efforts required by Executive Order 13514 and related laws and regulations, such
as the EPAct. Because of the importance of the Department's commitment to sustainability, we
initiated this audit to determine whether the Department was effectively meeting the EPAct
renewable energy requirements.

CONCLUSIONS AND OBSERVATIONS

In FY 2010, 3 years before it was required to do so, the Department reported that it had met
EPAct's overall requirement that at least 7.5 percent of its energy consumption be from
renewable sources. Specifically, the Department acquired approximately 461,000 megawatt
hours from renewable sources, representing over 9 percent of its annual electricity consumption
of 4.8 million megawatt hours. Although the Department's progress exceeded EPAct
requirements, our audit identified opportunities for improvement. Specifically:

    •   Despite EPAct's preference for producing renewable energy on Federal lands, the
        Department relied almost exclusively on purchases of renewable energy. In fact, in
        FY 2010, on-site renewable energy generation represented less than 1 percent of total
        electricity consumed Department-wide. The lack of large-scale on-site projects
        occurred, at least in part, because of the challenges the Department faced in financing
        renewable energy projects;

    •   Sites may not have always purchased renewable energy in the most cost-effective
        manner. In particular, we noted significant variability in the costs sites paid to purchase
        renewable energy— ranging from $0.44 to $26.67 per megawatt hour. The cost
        variability we noted was often a result of the sites' lack of awareness about available
        purchasing options and was not generally based on a detailed cost analysis of options
        that identified the best value. Additionally, the Department guidance on renewable
        energy purchases did not provide sites with advice regarding how to evaluate the
        different purchase options to ensure procurement at the best value; and,

    •   The Department had not ensured its sites reported consistent and accurate renewable
        energy data. For example, some sites inaccurately reported either the megawatt hours or
        the cost of renewable energy purchased. We noted that the Department's guidance did
        not provide detailed instructions to site officials concerning data input. However, it is
        important to note that the Department's achievement of EPAct's energy usage goals was
        not affected by the errors.

As detailed in the remainder of our report, improvements in these areas could enhance the
Department's efforts to satisfy national priorities related to energy efficiency and could bolster its
reputation as a leader in the field.

                             Reliance on Renewable Energy Purchases

Contrary to EPAct's preference for producing renewable energy on Federal lands, very little of
the Department's renewable energy has been generated on-site. While Department sites have
implemented approximately 260 on-site renewable energy projects, most of these projects are
small and have done little to offset the Department's energy use. In fact, in FY 2010, the
Department's on-site renewable energy production was less than 1 percent of its total electricity
consumed. Further, only 2 of 38 sites met individual renewable energy requirements solely
through projects on Federal lands.

For the most part, sites met EPAct requirements either through purchasing renewable energy
credits (RECs) or paying a premium for "green power." In FY 2010, purchases of RECs and
green power accounted for 441,000 megawatt hours. RECs are claims to the environmental
benefits associated with renewable energy generation. When procuring RECs, the purchaser




                                                  2
receives certificates that represent the generation of one megawatt hour of electricity from an
eligible source of renewable energy. RECs are not tied to the physical delivery of electricity, and
thus, can be purchased from suppliers other than a site's local electricity provider. Green power
purchases, on the other hand, are offered by many electricity providers as an optional service in
which a premium is paid in exchange for electricity generated from renewable power sources.
Attachment 3 describes the process for purchasing RECs and green power.

Continued reliance on RECs and green power purchases not only affects the Department's ability
to achieve EPAct's preference regarding production of renewable energy on Federal lands, but
also subjects the Department to future price uncertainty. While renewable energy purchases of
RECs and green power usually require no up-front capital and are relatively easy to procure, the
benefits delivered are only for the purchased year. Therefore, unexpected price increases could
negatively impact the Department's ability to meet its renewable energy requirements in the
future. For example, in the report Defense Infrastructure: DOD Needs to Take Actions to
Address Challenges in Meeting Federal Renewable Energy Goals (GAO-10-104, December
2009), the U.S. Government Accountability Office found that the Department of Defense had
missed meeting its renewable energy goals in FY 2008 because of a significant increase in RECs
prices over the prior year. Future price increases could be the result of any number of factors,
including new state regulatory mandates for electricity suppliers, the introduction of national
renewable standards, and any additional Federal policies on renewable energy, greenhouse gases,
or climate change. New standards could result in an increased demand for RECs. Also, as with
other commodities, higher demand for limited resources could result in higher prices.

While the Department's progress in meeting EPAct goals is laudable, the lack of large-scale on-
site projects, in our opinion, calls into question the Department's leadership in promoting the
development of renewable energy. A number of Department sites are located in areas with
abundant renewable energy resources, including solar in New Mexico; wind in Texas and Idaho;
and, biomass in South Carolina. The Department has recognized the need to demonstrate
leadership in this area and plans to implement more on-site projects in the future. In its FY 2011
Strategic Sustainability Performance Plan, the Department set a goal of increasing renewable
energy used, with emphasis on developing renewable energy generation on Department sites.

Financing Renewable Energy Projects on Federal Lands

The Department faces significant challenges in financing large-scale on-site renewable energy
projects. In our previous report, The Department of Energy's Energy Conservation Efforts
(OAS-L-11-02, February 2011), we noted that the appropriations needed for on-site energy-
related projects is in direct competition with mission critical needs for increasingly scarce
Federal resources. Since many renewable energy projects require high upfront capital
investment, the Department is often faced with difficult funding dilemmas. In addition,
alternative financing mechanisms, such as a power purchase agreement (PPA), have not been
feasible for large-scale renewable energy projects due to legislative limits on the Department's
contracting authority. PPAs are agreements in which a private entity installs, owns and operates
a renewable project on a Federal site, and the site purchases the energy generated by the project
through a long-term utility contract. Under Title 40 U.S. Code Section 501, the term of the




                                                3
Department's utility contracts, including PPAs, cannot exceed 10 years, whereas, renewable
energy developers typically need 20 years or more to recoup costs.

To its credit, the Department is aware of the barriers to the implementation of PPAs and is
working to develop strategies to overcome them. To that end, in March 2011, the Department's
Federal Energy Management Program issued a Request for Information (RFI) on Federal
government PPA issues, requesting industry input for the Department's consideration in order to
improve potential future PPA procurements. The RFI included various options for comment.
Unfortunately, the Department's analysis of industry feedback found that "none of the options
presented were compelling as financiers would consider them to be high risk." In the continued
absence of a comprehensive solution, the Department is considering expanding the use of
broader contracting authority available to the Western Area Power Administration (Western) to
execute PPAs for Department sites located in Western's region. Western is authorized, within its
region, to execute PPA contracts with terms up to 40 years, and can enter into intra-agency
agreements to purchase and sell renewable energy on a site's behalf. Western has executed four
PPAs at the Department's National Renewable Energy Laboratory in Golden, Colorado,
including two rooftop photovoltaic (PV) systems and two ground-mounted PV systems.

                        Renewable Energy Purchases – Cost Variability

Department sites may not have always purchased renewable energy in the most cost-effective
manner. We observed wide variability in the cost of renewable energy purchases within the
Department. In particular, we noted that renewable energy costs for the 10 sites we reviewed
varied from $0.44 to $26.67 per megawatt hour during FY 2010.

In FY 2010, 29 Department sites spent approximately $1 million on renewable energy purchases.
The 10 sites included in our review represented 52 percent of the Department's renewable energy
purchases and, at $665,071, accounted for nearly 70 percent of the cost. Our analysis focused
only on the costs specifically associated with the purchase of electricity from renewable sources,
including the costs for purchasing RECs and the additional premium paid for purchasing green
power.
We found the Department incurred lower costs when it purchased RECs through experienced
third party intermediaries, including private sector energy brokers or Federal contracting
agencies such as Western, the Defense Logistics Agency Energy (DLA Energy) and General
Services Administration (GSA). These intermediaries solicited bids on behalf of the sites and
arranged for the purchase of RECs. Intermediaries do not own RECs, but connect buyers and
sellers. Six sites we reviewed purchased RECs using intermediaries. The cost for those RECs
ranged from $0.44 to $5.00 per megawatt hour.

Four of the 10 sites we reviewed purchased green power directly from utility providers and paid
more per unit than those sites purchasing RECs through third party intermediaries. For example,
the Oak Ridge National Laboratory (ORNL) purchased green power from the Tennessee Valley
Authority at a cost of $26.67 per megawatt hour. ORNL officials noted their green power




                                                4
purchase was small and made in the interest of supporting a 10-year partnership with the
Tennessee Valley Authority's Green Power Switch program. Additionally, the Hanford Site,
Pacific Northwest National Laboratory (PNNL) and National Energy Technology Laboratory
(NETL) purchased green power from Bonneville Power Administration at a cost of $10.50 per
megawatt hour. To their credit, when PNNL officials became aware of additional procurement
options, they decided to purchase RECs through DLA Energy and realized a $9.00 per megawatt
hour savings.

The chart below shows the types and prices of renewable energy purchased for the sites we
reviewed:

                         FY 2010 RENEWABLE ELECTRIC ENERGY PURCHASES
                                  AT SELECTED DEPARTMENT SITES

                                                                  Purchase          Energy           MWh              Total        Cost per
                    Site                          Type
                                                                    Source          Source         Purchased          Cost1         MWh
            Ames Laboratory                 RECs                 Utility            Wind                 570          $1,995          $3.50
          Brookhaven National               RECs                 Broker             Mix                  10,000       $19,600           $1.96
              Laboratory                    RECs                 Broker             Mix                  25,000       $24,750           $0.99
               Hanford Site                 Green Power          Utility            Wind                 20,040     $210,420           $10.50
                                            RECs                 GSA                Wind                 23,000       $57,960           $2.52
               Headquarters
                                            RECs                 GSA                Wind                 12,000       $33,000           $2.75
            Kansas City Plant               RECs                 Western            Wind                  4,500        $7,515           $1.67
                                            RECs                 Western            Wind                  6,750       $11,273           $1.67
          Los Alamos National
                                            RECs                 Western            Biomass              24,000     $120,000            $5.00
              Laboratory
                                            RECs                 Western            Biomass               1,500           $660          $0.44
     National Energy Technology
              Laboratory                    Green Power          Utility            Wind                    176        $1,848          $10.50

      National Renewable Energy
                                            RECs                 Western            Wind                 43,000       $71,810           $1.67
              Laboratory
          Oak Ridge National
                                            Green Power          Utility            Mix                     675       $18,000          $26.67
              Laboratory
                                            RECs                 DLA Energy         Biomass              48,750       $50,700           $1.04
      Pacific Northwest National            RECs                 DLA Energy         Biomass               2,500        $2,725           $1.09
              Laboratory
                                            RECs                 DLA Energy         Biomass               3,750        $4,088           $1.09
                                            Green Power          Utility            Wind                  2,736       $28,727          $10.50
                                                                             Sample Totals             228,947      $665,071
1
    Costs reported for Hanford, PNNL and NETL are the premiums paid for green power purchases. These costs were not adjusted for conservation
    rate credits received from the provider utility that were applied toward those purchases. As of September 2011, these credits are no longer
    available.


Through discussions with site personnel, we found the disparity in costs was often a result of the
lack of awareness about available purchasing options rather than a detailed cost analysis of
options that identified the best value. The Department's Federal Energy Management Program




                                                                        5
has made guidance available to sites, including the Guide to Purchasing Green Power and the
Renewable Energy Requirement Guidance for EPAct 2005 and Executive Order 13423;
however, sites have not always used this guidance effectively in identifying alternatives for
purchasing renewable energy. Additionally, while these documents identify the various
procurement sources of renewable energy, no direction is contained therein on how to evaluate
the different options to ensure that sites procure the best value.

The Department's renewable energy purchases may significantly impact the overall renewable
energy market and the environment. By cost-effectively purchasing domestically produced
renewable energy, the Department contributes to the Nation's energy security, furthers national
goals of reducing greenhouse gas emissions and promotes growth in the renewable energy
market.

                                     Renewable Energy Data

During our review of 10 site's Consolidated Energy Data Reports (CEDR), we noted numerous
inconsistencies and errors in the reported renewable energy data. Specifically, we found that
four of the sites did not have the correct megawatt hours in the CEDR, and four sites did not
report a location for purchases. However, these errors in reported megawatt hours did not
materially affect the Department's calculation of its percentage of electricity produced from
renewable sources. Additionally, we found inconsistencies in the reporting of the cost to
purchase RECs and green power that we corrected in our cost analysis. Four sites recorded the
cost of purchase, while the other six included the cost of utility power in addition to the cost of
renewable energy purchases. For example, one site reported its purchase of RECs at a total of
$4.3 million, when it had actually spent only $90,960 on RECs. CEDR, provided to the
Sustainability Performance Office for reporting purposes, are a collection of sites' current and
proposed sustainability efforts including renewable purchases. We noted that the Department
had not provided detailed instructions on data input. Therefore, with 38 Department sites
reporting sustainability information, minor errors and different site approaches for data collection
and entry could eventually impact the accuracy of Department reports.

RECOMMENDATIONS

Given the importance of clean energy consumption and the Department's leadership role, we
recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy ensure that
the Director of the Sustainability Performance Office:

     1.   Work with the Federal Energy Management Program to resolve issues regarding the
          implementation of PPAs, including potential legislative changes, if necessary, to make
          them viable;

     2.   Develop guidance on the different purchasing options available to the Department sites
          and the factors for best-value purchases; and,

     3.   Clarify the guidance for CEDR, including reporting information and cost for
          purchased renewable energy, to ensure accuracy and consistency.



                                                 6
We appreciated the cooperation of various Department elements that provided information or
assistance.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Management concurred with our recommendations and identified actions it has taken or plans to
take to address the issues identified. Specifically, management will continue to raise the PPA
term limit issue when appropriate, increase efforts to make sites more aware of guidance on
purchasing renewable energy, and continue its efforts to improve reporting. Management also
stated that it was not clear sites had used guidance ineffectively and noted the decision to
purchase green power through a local utility may cost slightly more than to purchase a REC, but
provide more value in terms of contributing to local renewable resources. We agree that, in
some circumstances, higher cost green power purchases, or location-specific RECs may provide
more value to a site. However, based on our discussions with site personnel, we found the
disparity in costs was often a result of the lack of awareness of available purchasing options,
rather than a best value analysis of options. As it strives to make sites more aware of purchase
guidance, we would encourage management to ensure that sites are aware of best value factors to
consider, including location, cost, source and reductions in greenhouse gas emissions.

Management's comments and actions are responsive to our recommendations. Management's
written comments are included in Attachment 4.

Attachments

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Acting Under Secretary for Science
      Under Secretary for Nuclear Security
      Chief of Staff




                                               7
                                                                                    Attachment 1

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of our audit was to determine whether the Department of Energy (Department)
was effectively meeting the renewable energy requirements of the Energy Policy Act of 2005.

SCOPE

The audit was performed from January 2011 through April 2012. We conducted work at
Department Headquarters in Washington, DC, and obtained information from Ames Laboratory
in Ames, Iowa; Brookhaven National Laboratory in Upton, New York; Hanford Site in Richland,
Washington; Kansas City Plant in Kansas City, Missouri; Los Alamos National Laboratory in
Los Alamos, New Mexico; National Energy Technology Laboratory in Pittsburgh, Pennsylvania;
National Renewable Energy Laboratory in Golden, Colorado; Oak Ridge National Laboratory in
Oak Ridge, Tennessee; and, Pacific Northwest National Laboratory in Richland, Washington.
The scope of the audit primarily focused on the Department's activities for purchasing renewable
energy.

METHODOLOGY

To accomplish the audit objective, we:

     •    Reviewed the Department's renewable energy purchasing strategy;

     •    Interviewed key personnel at Department Headquarters and each of the sampled sites;

     •    Analyzed Site Sustainability Plans, Consolidated Energy Data Reports, Renewable
          Energy Credits and Green Power Purchases; and,

     •    Reviewed prior reports related to the audit objective.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and found the Department had not established performance measures
related to the renewable energy requirement. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer-processed data to accomplish our audit objective.

We held an exit conference with Department officials on April 17, 2012.




                                                8
                                                                                  Attachment 2

                                   RELATED REPORTS

Office of Inspector General Reports

    • Audit Report on The Department of Energy's Energy Conservation Efforts (OAS-L-11-
       02, February 2011). The audit revealed that the Department of Energy (Department) did
       not have a sufficient approach to achieve the future 30 percent energy conservation
       requirement in the Energy Independence and Security Act of 2007. At the time of the
       review, the Department sites had cumulatively planned enough energy conservation
       measures to reduce the Department's energy intensity by only 22 percent by Fiscal Year
       (FY) 2015. It was noted that not all the Department's sites could successfully manage or
       pursue Energy Savings Performance Contracts to meet the energy conservation
       requirement and the Department lacked a systematic approach to funding energy
       conservation measures.

    • Audit Report on The Department of Energy's Opportunity for Energy Savings Through
       Improved Management of Facility Lighting (DOE/IG-0835, June 2010). The audit
       revealed that the Department sites in the review had not always taken advantage of
       lighting technology opportunities to reduce energy consumption. Specifically, it was
       noted during the audit that the sites had not always used the most efficient lighting
       available in the market, fully adopted innovative lighting technologies, and ensured
       optimal use of automated lighting control systems. In addition, the Department lacked a
       systematic approach to upgrading lighting systems and an adequately funded energy
       conservation program to improve lighting efficiency at the sites.

U.S. Government Accountability Office Report

    • Report on Defense Infrastructure: DOD Needs to Take Actions to Address Challenges in
       Meeting Federal Renewable Energy Goals (GAO-10-104, December 2009). The
       Government Accountability Office found that the Department of Defense (DOD) missed
       meeting the Energy Policy Act of 2005 renewable energy requirement in FY 2008
       because the price of renewable energy certificates increased significantly from FY 2007
       to FY 2008. In FY 2007, DOD relied on unbundled renewable energy certificates. In
       FY 2008, the price of the certificates increased causing DOD to purchase fewer
       certificates. As a result, DOD missed the renewable energy requirement in FY 2008.




                                              9
                                                                                 Attachment 3

                                GREEN POWER MARKET

The figure below shows the typical transaction paths in a green power market for green power
purchases and renewable energy credits (RECs). This figure does not intend to represent a
comprehensive view of all the possible ways to purchase green power and RECs.




                     (Figure from the Guide to Purchasing Green Power)




                                              10
                      Attachment 4

MANAGEMENT COMMENTS




        11
     Attachment 4 (continued)




12
                                                                    IG Report No. OAS-M-12-04

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                     http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
